U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 24, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First Street NE
Washington, D.C. 20543
Re: Dozier v. United States, No. 20-136
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 3,
2020. The government’s response is now due, after one extension, on October 8, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including November 9, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-0136
DOZIER, TREMAYE T.
USA

MATTHEW S. HELLMAN
JENNER & BLOCK LLP
1099 NEW YORK AVENUE, NW
SUITE 900
WASHINGTON , DC 20001-4412
202-639-6000
MHELLMAN@JENNER.COM

